Department of the Interior
Office of Inspector General




Audit Report

U.S. Fish and Wildlife Service
Federal Assistance Grants
Administered by the
Commonwealth of Virginia,
Virginia Marine Resources Commission,
from July 1, 2003 through June 30, 2005




Report No. R-GR-FWS-0022-2005
April 2006
                 United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191


                                                                                     April 28, 2006

                                     AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Patti Boyd
               Acting Director of External Audits

Subject:       Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
               Grants Administered by the Commonwealth of Virginia, Virginia Marine
               Resources Commission, from July 1, 2003, through June 30, 2005
               (No. R-GR-FWS-0022-2005)

        This report presents the results of our audit of costs incurred by the Commonwealth of
Virginia (Commonwealth), Virginia Marine Resources Commission (Commission), under
Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS). The audit included
total reported outlays of approximately $2 million on FWS grants that were open during the
Commonwealth’s fiscal years ended June 30, 2004 and 2005 (see Appendix). The audit also
covered the Commission’s compliance with applicable laws, regulations, and FWS guidelines,
including those related to the use of saltwater sport fishing license revenues and the reporting of
program income.

        Generally, we found that the Commission complied with applicable grant accounting and
regulatory requirements for administering its Federal Assistance programs. However, we found
that the Commission had not adopted policies and procedures to ensure compliance with the
3 percent limitation requirement for central services costs. We also found that the
Commonwealth had not passed laws assenting to the provisions of the Dingle-Johnson Sport
Fish Restoration Act. However, the Commission initiated corrective action during our audit by
drafting an amendment to the Commonwealth’s legislation in order to comply with the assent
requirement. The Governor signed the amendment February 14, 2006, which becomes effective
July 1, 2006.

         FWS Region 5 provided a copy of the Commission’s April 4, 2006 response to the draft
of this report on April 12, 2006. We summarized the Commission’s and FWS response after the
recommendation and added our comments pertaining to the responses. The status of the
recommendation is summarized in Appendix 2.
       Based on FWS and the Commission’s responses, we consider the recommendation
resolved and implemented and no response to the final report is necessary.

       If you have any questions regarding this report, please contact me at (703) 487-5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                               2
                                        Introduction

Background
The Dingell-Johnson Sport Fish Restoration Act (Act) 1 authorizes FWS to provide Federal
Assistance grants to states to enhance their sport fish program. The Act provides for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. The Act
also specifies that state fishing license revenues cannot be used for any purpose other than the
administration of the state’s fish and game department.

Objective
The objectives of our audit were to determine whether costs incurred and claimed under Federal
Assistance grants to the Commission were in accordance with the Acts and related regulations,
FWS guidelines, and the grant agreements; saltwater sport fishing license revenues were used
solely for the Commission’s sport fish programs; and program income was reported and used in
accordance with federal regulations.

Scope
The audit work included total reported outlays of approximately $2 million on nine FWS grants
that were open during the Commonwealth’s fiscal years ended June 30, 2004 and 2005 (see
Appendix). We conducted our audit at the Commission’s offices in Newport News, Virginia,
and at the main campus of the Virginia Institute of Marine Sciences (Institute) in Gloucester
Point, Virginia. This audit was performed to supplement, not replace, the audits required by the
Single Audit Act of 1984, as amended and the Office of Management and Budget Circular
A-133. The audit included steps to determine whether:

      ¾ The Commission’s financial management system was adequate to account for grant
        receipts and disbursements.

      ¾ The direct and indirect costs incurred and claimed by the Commission under Federal
        Assistance grants were necessary and reasonable, allocable, accurate, and eligible for
        reimbursement.

      ¾ The Commission had an adequate system to account for and report license fee revenues,
        and ensure that saltwater sport fish license revenues were used only for the Commission’s
        sport fish programs.
      ¾ The Commission complied with selected grant agreement provisions and requirements of
        the Act, regulations, and FWS guidance.
      ¾ The Commonwealth enacted assent legislation in compliance with the Acts.


1
    As amended 16 U.S.C. § 777.

                                                 3
The audit did not include certain steps that our Federal Assistance grant audits normally include.
Specifically, we did not review the sport fishing license certifications because the Virginia
Department of Game and Inland Fish (Department) submitted the license certifications for the
Commission 2 . We also did not review the controls over real property and equipment acquired
with Federal Assistance funds or sport fishing license revenues because the Commission did not
acquire any real property or equipment.

Methodology
We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included examining the evidence supporting selected expenditures charged to the grants by the
Commission; reviewing time certification reports for selected Institute employees to ensure that
personnel costs charged to the grants were supportable; and determining whether the
Commission used saltwater sport fishing license revenues solely for sport fish program purposes.
To the extent possible, we relied on the work of the Commonwealth’s Auditor of Public
Accounts to avoid duplication of audit effort. We did not evaluate the economy, efficiency, or
effectiveness of the Commission’s operations.

We reviewed the accounting systems for labor and license fees in order to identify the internal
controls over transactions recorded in those systems and to test the operation and reliability of
those controls. Based on the results of our initial assessments, we assigned a level of risk to
these systems and, based on the level of risk assigned, we selected a judgmental sample of
transactions for substantive testing. We also reviewed transactions related to purchases, other
direct costs, drawdowns of reimbursements, and program income. We did not project the results
of the substantive tests to the total population of recorded transactions.

Prior Audit Coverage
On March 22, 2002, we issued a memorandum summarizing the results of our performance of
agreed-upon procedures related to costs claimed by the Commission under grants awarded by
FWS for the period July 1, 1997, through June 30, 1999. Based on our review of work
performed by the Defense Contract Audit Agency, we were unable to determine whether the
costs claimed for labor were accurate and eligible under the grant agreements, whether license
revenues were used only for authorized purposes, or whether all of the grantee’s systems and
controls were adequate. However, in reviewing the working papers, nothing came to our
attention indicating potential problems concerning the costs claimed or the adequacy of the
grantee’s systems and controls.

We also reviewed the Commonwealth’s Comprehensive Annual Financial Report and the Single
Audit Report for fiscal year 2004. However, the Commission’s Sport Fish Restoration grant
program had not been selected for testing in the Single Audit. These reports did not contain any
findings that would directly affect the Commission’s Federal Assistance grants.

2
 The license certifications will be included in the audit report issued on the Department of Game and Inland
Fisheries.

                                                         4
                                    Results of Audit
We found that the Commission was generally in compliance with applicable regulatory and grant
accounting requirements with respect to the following:

       ¾ The Commission’s financial management system and related internal controls were
         adequate to account for grant receipts and disbursements.
       ¾ The Commission’s direct costs claimed under the Federal Assistance grants were
         reasonable, supported, and eligible for reimbursement.
       ¾ The Commission had an adequate system to ensure that saltwater sport fish license
         revenues were used only for the Commission’s sport fish programs.
       ¾ The Commission complied with selected grant agreement provisions and
         requirements of the Act, regulations, and FWS guidance.

However, we determined that the Commission had not adopted procedures to ensure compliance
with the 3 percent limitation on central services costs.


Limitation on Central Services Costs
The Commission did not have procedures for ensuring that reimbursements for State central
services did not exceed the limitation cited the in the Dingell-Johnson Sport Fish Restoration Act
and the Code of Federal Regulations. The Act requires States to limit indirect costs for State
central services. The FWS has interpreted and codified this requirement in the Code of Federal
Regulations (50 CFR 80.15(e)). The regulation states that administrative costs in the form of
overhead or indirect costs for State central services outside of the State fish and wildlife agency
shall not exceed 3 percent of the annual apportionment to that State in any one fiscal year.

Although the indirect costs charged to the grants were based on approved indirect cost rates, the
Commission had not adopted procedures to ensure compliance with the 3 percent limitation
requirement. The Commission did not implement procedures because it was not aware of the 3
percent limitation requirement.

The States are responsible for complying with all the rules and regulations of the grant programs
for which they are participating. As such, the States must establish procedures, which includes
documenting steps to calculate, and ensure that indirect costs for central services will not exceed
three percent of the annual apportionment. Without proper application and monitoring, the
Commission’s reimbursement for central services cost could exceed the three percent limitation.




                                                 5
Recommendation

We recommend that FWS require the Commission to develop procedures to analyze
central services costs to ensure compliance with the 3 percent limitation requirement.


Commission Response
The Commission did not specifically state concurrence with the finding but developed
procedures using the format provided by FWS to ensure that the cost for State central
services outside the State fish and wildlife agency will not exceed the 3 percent
limitation. These procedures have been incorporated in the Commission’s Accounting
Policies and Procedures Manual.

FWS Response

FWS has reviewed and accepted the procedures outlined in the Commission’s response
and has verified that the procedures have been incorporated into the Commission’s
Accounting Policies and Procedures Manual.

OIG Comments

The Commission has developed procedures to resolve the finding and FWS has verified
that the procedures have been incorporated into the Commission’s Accounting Policies
and Procedures Manual. Based on FWS response, we consider the recommendation
resolved and implemented.




                                        6
                                             Appendix 1


 VIRGINIA MARINE RESOURCES COMMISSION
FINANCIAL SUMMARY OF REVIEW COVERAGE
     JULY 1, 2003 THROUGH JUNE 30, 2005


         Grant          Grant        Total
        Number        Amount       Outlays
      F-77-R-16      $357,721     $366,998
      F-77-R-17       377,344      388,152
      F-87-R-15       131,969      138,772
      F-87-R-16       131,808      142,029
      F-114-C-9        23,641       11,117
      F-114-C-10       24,527       13,953
      F-116-R-6       353,453      353,605
      F-116-R-17      353,792      386,850
      F-126-R-1       282,949      281,625
         Total     $2,037,204   $2,083,101




                      7
                                                                             Appendix 2

          VIRGINIA MARINE RESOURCES COMMISSION
                 STATUS OF AUDIT FINDINGS
                  AND RECOMMENDATIONS

Recommendations          Status                            Action Required

A                 Finding Resolved and       No further action is required
                  Implemented




                                         8
